Security Service Power Mastercard®
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

7.49% to 16.74% based on your creditworthiness.
These APRs will vary with the market based on the Prime Rate.
(For upgraded existing SSFCU credit cards, the rate will be effective on purchases
made beginning with the next billing cycle).

APR for Balance Transfers

8.90% to 9.90% based on your creditworthiness.
These APRs are a fixed rate and will not vary with the Prime Rate.
(For upgraded existing SSFCU credit cards, the rate will be effective on new
balance transfers made beginning with the next billing cycle).

APR for Cash Advances

7.49% to 16.74% based on your creditworthiness.
These APRs will vary with the market based on the Prime Rate.
(For upgraded existing SSFCU credit cards, the rate will be effective on new cash
advances made beginning with the next billing cycle).

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due
date each month. We will begin charging interest on balance transfers and cash
advances on the transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for a credit card or using a
credit card, visit the website of the Consumer Financial Protection Bureau at:
http://www.consumerfinance.gov/learnmore/

Fees
Transaction Fees
Balance Transfer Fee

Up to 2.00% with a $200 limit.

Cash Advance Fee

Up to 2.00%.

Foreign Transaction Fee

Up to 1.10%.

Penalty Fees
Late Payment

Up to $25.

Returned Payment

Up to $20.

How we calculate your balance: We use the method called the average daily balance (including new purchases).
This balance is figured by adding the outstanding balance (including new purchases and deducting payments and
credits) for each day in the billing cycle, and then dividing by the number of days in the billing cycle.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in
your account agreement.

Mastercard is a registered trademark, and the circles design is a trademark of Mastercard International Incorporated.

March 16, 2020

Security Service Power Mastercard®
Agreement And Disclosure Of Credit Card Terms
1. Words Used Often in This Agreement. “Agreement” means this Security Service Federal Credit Union Credit Card
Agreement. “We,” “us” and “our” mean Security Service Federal Credit Union. “You” and “your” mean the person who
signed an application for an account with us. If more than one person signed the application, “you” and “your” mean
each person who signed the application. “Account” means your credit card account with us. “Card” means the credit
card issued to you for your account with us. If we issue more than one credit card to you, “card” includes each credit
card issued to you. “ATM” means automated teller machine.
2. This Is Your Contract with Us. You have submitted an application for an account with us. By using or permitting
another to use your card(s), you are accepting the terms of this agreement and agreeing to keep all your promises to
us contained in this agreement.
3. Sign the Card and Keep This Agreement. You must sign the card before you use it. You should read this
agreement and keep it for your records.
4. Military Lending Act – Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the
Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must
include, as applicable to the credit transaction or account: The costs associated with credit insurance premiums; fees
for ancillary products sold in connection with the credit transaction; any application fee charged (other than certain
application fees for specified credit transactions or accounts); and any participation fee charged (other than certain
participation fees for a credit card account).
In the event the Military Lending Act applies to an SSFCU product or service, then notwithstanding any other term or
condition in such product or service, such product or service insofar as it applies to the covered borrower, (1) shall not
contain any arbitration provision, (2) shall only be subject to setoff or cross-collateralization as is allowed by law, and
(3) all legal notices shall be provided in accordance with the law of the applicable jurisdiction.
If you are a covered borrower under the Military Lending Act you are entitled by law to an oral disclosure of your loan
terms. If you would like to hear that disclosure, please call 1-866-452-6945.
5. Promise to Pay. You promise to pay us the amount of all purchases, cash advances and balance transfers that you
make using the card and all other charges, including the interest charge incurred under this agreement. Each use of
the card at an ATM to obtain cash is a cash advance. If you allow any person to use the card, you must pay for their
purchases, cash advances, balance transfers and other charges, too.
6. Promise to Pay Applies to All Applicants. If more than one person signed the application, each of you promises to
pay all amounts owed to us under this agreement. This means that we may collect money owed to us from each of
you or from all of you.
7. Your Credit Limit. We will tell you the maximum amount you may owe us at any one time. That amount is your credit
limit. We may, in our sole discretion, allow additional borrowing if you are already up to your credit limit or if the
borrowing would take you over your credit limit.
8. Monthly Statement and Payments. We will send you a statement each month if your account has a balance. We will
send you one statement for all cards issued with your account number. If more than one person signed the
application, we will send the statement to the first person listed on the application. Each statement covers a billing
cycle. A billing cycle is the number of days from the day after the “statement date” on your last statement to the
“statement date” on your current statement.

Security Service Power Mastercard®
Mastercard is a registered trademark, and the circles design is a trademark of Mastercard International Incorporated.

March 16, 2020

Your monthly statement will show your new balance, which is the total amount you owe us as of the statement date. It
will also show the minimum payment. Your minimum payment will be either $20.00 or 2% of the new balance,
rounded up to the nearest dollar, whichever is greater. If your new balance is less than $20.00, your minimum
payment will be the amount of the new balance. You must pay at least the minimum payment by the payment due
date shown on your statement. The payment due date for a billing period will be 25 days after the billing period ends.
You may pay the new balance in full or in part at any time. If you pay more than the minimum payment, you will still
have a minimum payment due on the next statement.
9. Other Payment Terms. All your payments to us must be in U.S. dollars. All checks and other payment instruments or
automatic debits must be drawn on funds on deposit in the United States. We can accept partial or late payments, as
well as payments that are marked with “paid in full” or any other similar language without losing any of our rights
under this agreement. Payments made to your account will be allocated in the following manner:
a. Unpaid interest charges
b. Fees and penalties
c. Balances with the highest APR
10. Periodic Interest Rate Determination. Periodic Rates (Variable Rate). The Monthly Periodic Rate applied to the
balance subject to an interest charge for both purchases and cash advances will be a floating rate based upon an
index. However, regardless of the index value, the effective Annual Percentage Rate corresponding to the Monthly
Periodic Rate will never exceed EIGHTEEN PERCENT (18%), which is called the “Maximum Annual Percentage
Rate”.
a. The index used to calculate the periodic rate is the “prime rate” as published in the Money Rates table of the Wall
Street Journal. The index value used for a given billing cycle will be the value published on the last day of your
previous billing cycle. If the index is not published that day, the most recently published value before that day will
be used to determine the Monthly Periodic Rate. If more than one prime rate is published, the index will be the
highest rate published. If the Wall Street Journal ceases as a publication, we may use the prime rate published by
any other newspaper or general circulation. If the Annual Percentage Rate increases, your periodic payment
amount may increase.
b. Depending on your creditworthiness, we will add 4.24, 6.24, or 13.49 percentage points to the index value to get
the Annual Percentage Rate that will apply to your respective account for the next billing cycle. Then, the Annual
Percentage Rate for the billing cycle will be divided by 12 to get the Monthly Periodic Rate for the billing cycle.
c. In the event the effective Annual Percentage Rate for the billing cycle exceeds the Maximum Annual Percentage
Rate we will divide the appropriate Maximum rate by 12 to get the Monthly Periodic Rate for the billing cycle.
11. When Interest Charge Is Imposed.
Cash Advances and Balance Transfers: There is no “free period.” An interest charge will be imposed as of the date
of each cash advance or balance transfer that you obtain through the use of your card and will continue to accrue until
the date of full payment and all billed interest charges have been credited to your account. Such interest will appear
on your next statement.
Retail Purchases of Goods and Services: There is a “free period.” When the total balance is paid in full within
twenty-five (25) days after the statement date (on or before the payment due date), no additional interest charge will
be applied to new purchases appearing on the statement. If the new balance is not paid in full each month, within the
prescribed time limitation, an interest charge will be imposed on the previous balance and on new purchases as of the
date such purchase is posted to your account. Interest will continue to accrue until the date full payment of these
items and all billed interest has been credited to your account. Such interest charges will appear on your next
statement.
12. How We Compute the Balance on which Interest Charges Are Assessed. If payment in full for the entire new
balance shown on your statement from the previous billing cycle was received by us within 25 days after the
statement date (by the payment due date), new charges appearing on the current statement are excluded from the
following calculation: We figure the interest charge on your account by applying the periodic rate to the “average daily
balance” of your account (including current transactions). To get the “average daily balance,” we take the beginning
balance of your account each day, add any new advances or purchases and subtract any payments or credits and
any unpaid interest and fees. This gives us the daily balance. Then we add up all the daily balances for the billing
cycle and divide by the total number of days in the billing cycle. This gives us the “average daily balance.” The
“average daily balance” is then multiplied by the periodic rate shown above to determine your periodic interest charge.

Mastercard is a registered trademark, and the circles design is a trademark of Mastercard International Incorporated.

March 16, 2020

Security Service Power Mastercard®
13. Foreign Transactions. If you use your card to purchase goods or services, or to obtain cash in another country, your
statement will reflect the conversion of the foreign currency transaction amount into U.S. dollars. The currency
conversion rate used to determine the transaction amount into U.S. dollars may be either a wholesale market rate or
government-mandated rate in effect the day Mastercard® processes the transaction, which may differ from the date
the transaction occurred or when it is posted to the cardholder’s account.
14. Liability for Unauthorized Use. You must tell us at once if the card is lost or stolen or you think someone used your
account without your permission. We may ask you to pay if someone used the card without your permission. We will
not ask you to pay if use of the card without your permission occurs after you notify us that the card is lost or stolen.
You may notify us that the card is lost or stolen by calling 1-888-421-4999. Your liability for unauthorized use will not
exceed $50.
15. Address for Notices to Us. All notices under this agreement should be addressed to Security Service Federal Credit
Union, Box 691550, San Antonio, Texas 78269-1550; Telephone 1-888-421-4999.
16. Consent to Receive Communications. As allowed by law, we, including our agents and assigns, may try to contact
you at any mailing address, e-mail address, or telephone number you provide to us now and in the future. This
includes trying to contact you in writing, including mail and e-mail, by text messages and by telephone using an
automatic telephone dialing system, pre-recorded voice, or artificial voice.
17. Changes in the Terms of This Agreement. We may change the terms of this agreement by mailing a written notice
to the physical or electronic address shown on our record for this account. Notices will be provided in accordance with
applicable law. Changes will take effect and become binding as of the effective date identified on the notification.
18. You May Cancel the Account. You may cancel the account whenever you choose. To cancel the account, notify us
at the address shown in paragraph 15 in writing that you want to cancel the account. You must still pay us any amount
that you owe us.
19. We May Cancel the Account. We have the right to cancel the account at any time. You must return the card if we
ask you to do so. You may not use the card after we have cancelled the account.
20. If You Do Not Pay Us. If you do not pay us the minimum payment due on or before the payment due date, or if you
fail to meet any other obligations to us under this Agreement, or if the credit privileges under the Account are misused
or used fraudulently, or if any representation in the information regarding your financial affairs you provide to us for the
Account proves to be false, or if you become the subject of any bankruptcy or similar proceeding, or if you die, we,
without advance notice, can close your Account and declare the entire Account balance due and payable immediately
unless such action is precluded by state law. You waive demand, presentment, and notice of intent to accelerate and
notice of acceleration. If you do not pay us as agreed, you agree to pay the reasonable collection costs, including any
court costs and reasonable attorney fees we incur in enforcing the Agreement.
21. Credit Bureau Reporting. We may report information about your account to credit bureaus. Late payments, missed
payments, or other defaults on your account may be reflected in your credit report.
22. Attorney Fees. If we refer your account to an attorney for collection, we may charge you (in states where permitted
by law) for reasonable attorney fees and court costs incurred by us. This paragraph will not be considered a part of
this agreement if you live in a state that does not allow us to collect attorney fees and court costs.
23. The Provisions of This Agreement Are Separable. If any provision of this agreement is held to be invalid or
unenforceable, the rest of this agreement will not be affected.
24. Limitation of Our Responsibility. We will not be responsible for merchandise or services purchased by you with the
card unless required by law. We will not be responsible for the refusal of any person to honor the card or if you are
not able to use the card at an ATM.
25. Assignment of Your Account. We may assign your account without obtaining your consent.

Mastercard is a registered trademark, and the circles design is a trademark of Mastercard International Incorporated.

March 16, 2020

Security Service Power Mastercard®
26. What Law Applies. Texas law, federal law, and other applicable state laws will govern this agreement. These laws
will be used to interpret our rights and your obligations under this agreement.
27. Credit Reporting Agencies. We may give information about your payment history under this agreement to other
persons or companies when permitted by law. You authorize us to make whatever credit or investigative inquiries we
deem necessary in the course of review of any credit extended under this agreement. If you ask us, we will tell you
whether we asked for credit reports about you. If we did, we will give you the name and address of the credit-reporting
agency.
28. Automatic Billing Updater (ABU). SSFCU subscribes to the Mastercard® Automatic Biller Updater program and
SSFCU provides updated card information to the Service. Merchants who may participate in the Automatic Billing
Updater program will receive updated cardholder information for recurring card transactions. Information such as your
expiration date, card number (if the original card was lost/stolen/transferred) and closed card notifications are updated
with this service and communicated directly to participating merchants with whom you have recurring payments. To
ensure your payments continue uninterrupted, we recommend you continue to notify each merchant of any card
changes since all merchants do not subscribe to this service.
29. Internet Gambling Disclosure. You may use your Security Service Federal Credit Union Mastercard®, hereinafter
referred to as “card,” to conduct any transaction or obtain any credit union service permitted by law. Your Security
Service Federal Credit Union credit card may not be used for Internet gambling transactions. The credit union will
decline ALL KNOWN Internet gambling transaction requests. The credit union may also decline ALL transactions with
a mismatched expiration date and transactions that are hand-keyed if the hand-keyed transaction is for any type of
betting, including lottery tickets, casino gaming chips, off-track betting, and wagers. You agree that the use of the card
to obtain a service or effect a transaction that is illegal under the law of any jurisdiction where originated, effected or
accomplished will be a default and breach of this agreement where originated, effected, paid, or accomplished. As a
result, Security Service Federal Credit Union may terminate the access to the service or withdraw the right to use the
card and/or demand the return of all cards or other access devices issued to you. If illegal use of your card occurs,
you waive the right to sue Security Service Federal Credit Union and agree to indemnify and hold Security Service
Federal Credit Union harmless from any suits or other legal action or liability which may be asserted directly or
indirectly, against Security Service Federal Credit Union arising out of or resulting from the illegal use of this card.
30. Arbitration. To the extent allowed by law, any claim, dispute, or controversy (whether in contract, tort, or otherwise)
arising from or relating to this agreement or the relationships which result from this agreement, including the validity or
enforceability of this arbitration clause or any part thereof or the entire agreement (“claim”) shall be resolved, upon the
election of you or us, by binding arbitration pursuant to this arbitration provision and the Code of Procedure of the
National Arbitration Forum in effect at the time the claim is filed. THE PARTIES ACKNOWLEDGE THAT THEY
AGREE TO RESOLVE ANY CLAIMS THROUGH ARBITRATION, AND THAT THEY HEREBY WAIVE THEIR
RIGHTS TO LITIGATE CLAIMS IN A COURT UPON THE ELECTION OF ARBITRATION BY EITHER PARTY.
31. Other Agreements. This agreement supersedes all prior credit card agreements between you and us governing the
use of cards issued by us.
32. Notices. You may pay the full amount you owe us at any time. A negative credit report reflecting on your credit record
may be submitted to a credit-reporting agency if you fail to keep your promises under this agreement.

Security Service Power Mastercard®

Mastercard is a registered trademark, and the circles design is a trademark of Mastercard International Incorporated.

March 16, 2020

YOUR BILLING RIGHTS: KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement:
If you think there is an error on your statement, write to us at: Security Service Federal Credit Union, P.O. Box 691550,
San Antonio, Texas 78269-1550. In your letter, give us the following information:
 Account information: Your name and account number.
 Dollar amount: The dollar amount of the suspected error.
 Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
 Within 60 days after the error appeared on your statement.
 At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
 We cannot try to collect the amount in question, or report you as delinquent on that amount.
 The charge in question may remain on your statement, and we may continue to charge you interest on that
amount.
 While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
 We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
 If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
 If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable
interest and fees. We will send you a statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know
when the matter has been settled between us. If we do not follow all of the rules above, you do not have to pay the first
$50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in
good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note: Neither of these is necessary if your purchase was
based on an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with
a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at: Security Service
Federal Credit Union, P.O. Box 691550, San Antonio, Texas 78269-1550. While we investigate, the same rules apply to
the disputed amount as discussed above. After we finish our investigation, we will tell you our decision. At that point, if we
think you owe an amount and you do not pay, we may report you as delinquent.

Mastercard is a registered trademark, and the circles design is a trademark of Mastercard International Incorporated.

March 16, 2020

